  DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General


  The State of New Jersey’s Management
    of State Homeland Security Grants
    Awarded During Fiscal Years 2002
               through 2004




OIG-07-58                     July 2007
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                            July 12, 2007

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published as part of our
DHS oversight responsibilities to promote economy, effectiveness, and efficiency within the
Department.

The attached report presents the results of the audit of the State of New Jersey’s management of
State Homeland Security Grants awarded during Fiscal Years 2002 through 2004. We contracted
with the independent public accounting firm of Williams, Adley & Company, LLP to perform the
audit. The contract required that Williams, Adley & Company, LLP perform its audit according to
generally accepted government auditing standards and guidance from the Office of Management and
Budget and the Government Accountability Office. Williams, Adley & Company, LLP reported that
the State (1) effectively and efficiently implemented the first responder grant programs, (2) achieved
the goals of the programs, and (3) generally spent funds in accordance with grant requirements. This
report identified three areas where the State of New Jersey’s management of the grant funds could be
improved. Specifically, the State needs to ensure that (1) expenditures are properly supported with
adequate documentation and funds amounting to $247,199 in unsupported expenditures are returned
to DHS, (2) progress reports are submitted and retained, and (3) financial status reports are
submitted timely. Williams, Adley & Company, LLP is responsible for the attached auditor’s report
dated May 14, 2007, and the conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
1250 H Street, N.W., Suite 1150 ● Washington, DC 20005 ● (202) 371-1397 ● Fax: (202) 371-9161
Table of Contents/Abbreviations


  Executive Summary .................................................................................................................1

  Background ..............................................................................................................................3

  Results of Audit ......................................................................................................................8

       Supporting Documentation for Expenditures Charged to Federal Funds
        Was Inadequate………………………………………………………………………....15
       Categorical Assistance Progress Reports Were Not Submitted...…………………..……18
       Financial Status Reports Were Not Submitted Timely.................................................….20

  Appendices

       Appendix A:           Objectives, Scope, and Methodology .......................................................24
       Appendix B:           The Office of the Attorney General’s Organization Chart….…..…….….28
       Appendix C:           The Office of the Attorney General’s Response to Recommendations..…29
       Appendix D:           Report Distribution ....................................................................................31

  Abbreviations
    DHS        Department of Homeland Security
    FY         Fiscal Year
    OIG        Office of Inspector General




                          The State of New Jersey’s Management of State Homeland Security Grants
                                          Awarded During FYs 2002 through 2004
Executive Summary

              Williams, Adley & Company, LLP completed an audit of the Department of
              Homeland Security’s (DHS) State Homeland Security Grants awarded to the
              State of New Jersey. The objectives of the audit were to determine whether
              the State (1) effectively and efficiently implemented the first responder grant
              programs, (2) achieved the goals of the programs, and (3) spent funds in
              accordance with grant requirements. The goal of the audit was to identify
              problems and solutions that would help the State of New Jersey prepare for
              and respond to terrorist attacks. (See Appendix A for additional details on the
              objectives, scope, and methodology of this audit.)

              The audit included a review of approximately $115.3 million awarded by the
              DHS to the State of New Jersey from the fiscal year (FY) 2002 State
              Domestic Preparedness Program, the FY 2003 State Homeland Security Grant
              Program Parts I and II, and the FY 2004 State Homeland Security Grant
              Program. The Office of the Attorney General, within the Department of Law
              and Public Safety, managed the programs, commonly referred to as first
              responder grant programs. (See Appendix B for the Office of the Attorney
              General’s Organization Chart.)

              Although the scope of this audit included a review of costs claimed, a
              financial audit of those costs was not performed. Accordingly, we do not
              express an opinion on the State of New Jersey’s financial statements or the
              funds claimed in the Financial Status Reports submitted to DHS.

              Overall, we found that the State (1) effectively and efficiently implemented
              the first responder grant programs, (2) achieved the goals of the programs, and
              (3) generally spent funds in accordance with grant requirements. However,
              we found the following exceptions that warrant attention. The body of this
              report provides detailed discussion of the following findings:

              •   Supporting documentation and accounting records were not retained for
                  expenditures charged to federal funds totaling $247,199. This resulted
                  from extensive work by the State to provide sufficient supporting
                  documentation for various expenditures, initially, totaling $15.9 million.
                  The grantee and subgrant recipients have inefficient internal controls over
                  record retention and failed to adhere to the record-keeping and reporting
                  requirements for the unsupported funds as defined in the Code of Federal
                  Regulations Title 28 § 66.42, Retention and access requirements for
                  records.


            The State of New Jersey’s Management of State Homeland Security Grants
                            Awarded During FYs 2002 through 2004


                                           Page 1
  •   The New Jersey Office of the Attorney General did not provide the
      Categorical Assistance Progress Report for 5 of 27 reporting periods for
      the FY 2003 grants.
  •   The Office of the Attorney General did not submit 12 of 46 required
      Financial Status Reports in a timely manner, within 45 days of the end of
      the quarter.

  We recommend that the Deputy Administrator, National Preparedness
  Directorate within the Federal Emergency Management Agency require the
  New Jersey Office of the Attorney General to:

  •   return to DHS amounts related to the unsupported expenditures;
  •   evaluate its requirements for subgrant recipients to maintain adequate
      supporting documentation;
  •   take steps to ensure the record retention requirements are being followed
      and records are maintained at a centralized location;
  •   submit the five Categorical Assistance Progress Reports that were
      missing; and
  •   retain evidence that they are complying with the grant terms regarding
      Categorical Assistance Progress Reports.

  We recommend that the Deputy Administrator, National Preparedness
  Directorate within the Federal Emergency Management Agency strongly
  encourage the Office of the Attorney General to finalize and implement the
  written procedures related to the Financial Status Reports to ensure that the
  reports are submitted timely in the future.

  The details of the findings, as well as recommendations, are described in the
  Results of Audit section of the report.

  The National Preparedness Directorate officials within the Federal Emergency
  Management Agency and the State of New Jersey officials provided verbal
  concurrences with the recommendations contained in this report at their exit
  conference on April 16, 2007 and April 18, 2007, respectively. Additionally,
  the State provided a written response to the recommendations on April 20,
  2007. See the full body of their response in Appendix C. The National
  Preparedness Directorate will provide corrective actions and a plan to
  implement those corrective actions within 90 days.

  While this report addresses the State of New Jersey’s management of the grant
  programs listed above, we also identified potential opportunities for improved
  oversight by the National Preparedness Directorate staff. These opportunities
  will be considered by the Office of Inspector General (OIG) for reporting
  under separate cover when the results of other state audits are available.

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 2
Background

               The Homeland Security Grant Program is a federal assistance grant program
               administered by the U.S. Department of Homeland Security, National
               Preparedness Directorate within the Federal Emergency Management Agency.
               The current National Preparedness Directorate, hereafter referred to as DHS,
               began with the Office of Domestic Preparedness which transferred from the
               Department of Justice to DHS in March 2003, and subsequently consolidated
               into the Office of State and Local Government Coordination and Preparedness
               which, in part, became the Office of Grants and Training. Although the
               function transferred to DHS, applicable Department of Justice grant
               regulations and legacy systems are still used as needed to administer the
               program. For example, the State enters payment data into the Office of
               Justice Programs Phone Activated Paperless Request System, a drawdown
               payment system.

               The DHS is responsible for enhancing the capabilities of state and local
               jurisdictions to respond to, and mitigate the consequences of, incidents of
               domestic terrorism. The DHS provides grant funds to aid public safety
               personnel (e.g., first responders) acquiring specialized training, exercises and
               equipment necessary to safely respond to and manage terrorist incidents
               involving chemical, biological, radiological, nuclear or explosive weapons,
               including weapons of mass destruction. First responders include firefighters,
               police, paramedics, and others. The grants are collectively referred to as “first
               responder” grants. These types of grants within the Homeland Security Grant
               Program provide federal funding to help states and local agencies enhance
               their capabilities to prevent, deter, respond to, and recover from threats or acts
               of terrorism.

               State governors appoint a State Administrative Agency responsible for
               managing and administering homeland security grant funds according to
               established federal guidelines. The State Administrative Agency also serves
               as the pass-through entity for funds sub-granted to local, regional, or other
               state government agencies. The governor of New Jersey designated the Office
               of the Attorney General within the Department of Law and Public Safety to
               serve as the State Administrative Agency.

               The State of New Jersey received approximately $115.3 million in funds from
               the Homeland Security Grant Program during FYs 2002 through 2004.
               During the period FYs 2002 through 2004 sub-grants were awarded to
               approximately 45 state agencies, local agencies, and first responder agencies.
               The Homeland Security Grant Program encompasses several different federal
               grant programs, including the State Domestic Preparedness Program and the
             The State of New Jersey’s Management of State Homeland Security Grants
                             Awarded During FYs 2002 through 2004


                                            Page 3
  State Homeland Security Grant Program. The first responder grants are
  described in the following paragraphs.

  First Responder Grant Programs

  The FY 2002 State Domestic Preparedness Program grants provided
  financial assistance to each of the nation’s states, including U.S. Territories,
  the District of Columbia and the Commonwealth of Puerto Rico. This
  financial assistance was provided for the purchase of specialized equipment to
  enhance the capability of state and local agencies to respond to incidents of
  terrorism involving the use of weapons of mass destruction; for the protection
  of critical infrastructure; for costs related to the design, development, conduct
  and evaluation of weapons of mass destruction exercises; and for
  administrative costs associated with the implementation of the statewide
  domestic preparedness strategies.

  FY 2003 State Homeland Security Grant Program Part I funding provided
  financial assistance for (1) the purchase of specialized equipment to enhance
  the capability of State and local agencies to prevent and respond to incidents
  of terrorism involving the use of chemical, biological, radiological, nuclear, or
  explosive weapons; (2) the protection of critical infrastructure and prevention
  of terrorist incidents; (3) costs related to the design, development, conduct,
  and evaluation for chemical, biological, radiological, nuclear, or explosive
  exercises; (4) costs related to the design, development, and conduct of state
  chemical, biological, radiological, nuclear, or explosive training programs;
  and, (5) costs associated with updating and implementing each state’s
  homeland security strategy. States allocated these grant funds in accordance
  with their approved homeland security strategies.

  FY 2003 State Homeland Security Grant Program Part II provided
  supplemental funding available through FY 2003 for the State Homeland
  Security Grant Program to enhance first responder preparedness. The State
  Homeland Security Grant Program Part II funds were also available to
  mitigate the costs of enhanced security at critical infrastructure facilities
  during the period of hostilities with Iraq and future periods of heightened
  threat.

  The FY 2004 State Homeland Security Grant Program provided funding
  for specialized equipment, exercises, training, and planning costs associated
  with updating and implementing each state's homeland security strategy.




The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 4
  Grant Funding

  The State of New Jersey received approximately $115.3 million in funds from
  the Homeland Security Grants Program during FYs 2002 through 2004. See
  Table 1 for a breakdown by year and funded activity. The awards were
  allocated to various state agencies, counties, regions, and first responder
  agencies. The available funding in FY 2002 was used to purchase specialized
  equipment. In FY 2003 and FY 2004, the State of New Jersey used grant
  funds for specialized emergency response equipment, training, exercise
  activities, and planning and administration. Also, in FY 2004, the State
  focused on security enhancements designed to prevent, detect, and interdict
  terrorist attacks and to improve responses. The enhancements included
  security and surveillance, improved communications, a statewide program to
  detect and defuse explosives, expansion of the Statewide Intelligence
  Management System, an E-learning network for training, and a Community
  Emergency Response Team program.

                                        Table 1
                       New Jersey Homeland Security Grants Awards
                                  FYs 2002 through 2004
                                              Grant Program
                                                 (‘000s)
                                    2003 State     2003 State
                                    Homeland       Homeland    2004 State
                      2002 State     Security       Security   Homeland
                       Domestic       Grant          Grant      Security
      Funded         Preparedness   Program,       Program,      Grant
      Activity         Program        Part I         Part II    Program            Totals

   Equipment                 $7,397         $9,980         $32,648       $42,067    $92,092

   Exercise                     352          2,495             N/A          N/A       2,847

   Training                    N/A             749             N/A          N/A        749

   Administration               199            998             N/A          N/A       1,197
   Critical
   Infrastructure              N/A            N/A             5,023         N/A       5,023
   Law
   Enforcement
   Terrorism
   Protection                  N/A            N/A              N/A        12,483     12,483

   Citizens Corps              N/A            N/A              N/A          874        874
        TOTALS               $7,948        $14,222         $37,671       $55,424   $115,265




The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 5
  State Administrative Agency

  The Office of the Governor, which has the overall responsibility for
  emergency management in New Jersey, has taken a proactive and engaged
  approach to protecting New Jersey’s citizens, communities and critical
  facilities, according to the New Jersey Domestic Security Task Force’s
  2004/2005 Annual Report. The members of the State Legislature have also
  sustained New Jersey’s counter-terrorism and homeland security efforts by
  authorizing spending of over $248 million in state funds for homeland
  security efforts from FYs 2002 through 2004.

  In 1999, the Governor established the New Jersey Domestic Preparedness
  Planning and Coordination Group to assess New Jersey’s capabilities and to
  plan a coordinated response to domestic terrorist acts. In October 2001, less
  than a month after the terrorist attacks of September 11, 2001, New Jersey
  statutorily created the Domestic Security Preparedness Task Force (The Task
  Force), a cabinet level body. The Task Force is responsible for the
  development of an effective homeland security policy and coordination effort.
  The Task Force’s activities are designed to reinforce and expand New Jersey’s
  existing antiterrorism efforts by enhancing and integrating security, planning
  and preparedness measures throughout the State. By establishing a joint effort
  among government agencies at all levels (state, local and federal) and New
  Jersey’s private sector, the Task Force fosters greater unity in coordinating the
  State’s domestic security preparedness and planning.

  The Task Force was chaired by the Attorney General who was appointed by
  the Governor according to the New Jersey Domestic Security Preparedness
  Act of 2001. Under Executive Order 5 issued by the Governor in March
  2006, the Task Force, among other improvements, became part of the Office
  of Homeland Security and Preparedness and is now chaired by the Director of
  the Office of Homeland Security and Preparedness.

  The Governor initially designated the Office of the Attorney General within
  the Department of Law and Public Safety to serve as the State Administrative
  Agency. The Office of the Attorney General working in conjunction with the
  Division of State Police and the Office of Homeland Security and
  Preparedness is responsible for programmatic, financial, and administrative
  aspects of the federal funding. The Office of the Attorney General with the
  support of the Task Force, the New Jersey Office of Counter Terrorism, the
  New Jersey Division of State Police, and the County Working Groups has
  worked cooperatively towards the development of the State of New Jersey
  homeland security strategy. The strategy documents prepared cooperatively
  by these groups recognize the need for New Jersey to have statewide and

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 6
  regional solutions based upon risks and potential vulnerabilities to people and
  critical infrastructure. The funding strategies were developed by the Task
  Force under the supervision of the Office of the Attorney General’s Grants
  Management Office.

  The Office of the Attorney General, the Division of State Police, and the
  Office of Homeland Security and Preparedness have 15 people supporting the
  first responder’s grants. These people include grant coordinators, analysts,
  and program and finance personnel. Also, the Office of the Attorney General
  uses 10 auditors and field liaisons to perform monitoring activities.




The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 7
Results of Audit

                Since 1999, the New Jersey Governor has established a positive tone from the
                top by creating the New Jersey Domestic Preparedness Planning and
                Coordination Group and advocating the cabinet-level Task Force in October
                2001. The Governor and State-elected officials have provided state funds of
                approximately $248 million from FYs 2002 through 2004 and have continually
                requested federal funding to ensure that New Jersey which is densely
                populated with people and critical infrastructure receives funding
                commensurate with the risks it faces. The Governor tasked the Office of the
                Attorney General with the responsibility for the grants received from DHS.

                The objectives of the audit were to determine whether the State of New Jersey
                (1) effectively and efficiently implemented the first responder grant programs,
                (2) achieved the goals of the programs, and (3) generally spent funds in
                accordance with grant requirements.

                In determining whether the State of New Jersey had effectively and efficiently
                implemented the first responder grant programs, we answered the following
                researchable questions:

                •   Did the State use reasonable methodologies for assessing threat,
                    vulnerability, capability, and prioritized needs?

                    Yes, the State of New Jersey did use reasonable methodologies for
                    assessing threats, vulnerability, capability, and prioritized needs. Overall,
                    the Office of the Attorney General with the support of the New Jersey
                    Domestic Security Preparedness Task Force (the Task Force), the New
                    Jersey Office of Counter Terrorism, the New Jersey Division of State
                    Police, and the County Working Groups have worked cooperatively
                    towards the development and implementation of the statewide strategies in
                    FYs 2001 and 2003. In the development of the strategies they have
                    recognized and incorporated the skills and resources of the New Jersey
                    citizens, private business and industry, local communities, counties, and
                    the state and federal government.

                    We noted that the Task Force used jurisdictional threat assessments,
                    intelligence reports, infrastructure specialists, and the County Working
                    Groups to determine the key facilities/infrastructure, current capabilities,
                    skills, and experiences, vulnerabilities, and prioritized needs. The process
                    for compiling the assessment and strategies involved building on existing
                    response capacities; purchasing personal protection equipment; identifying
                    critical infrastructure; developing best practices; developing a “follow the
              The State of New Jersey’s Management of State Homeland Security Grants
                              Awarded During FYs 2002 through 2004


                                             Page 8
      hazards” approach; instituting regional planning; and facilitating,
      developing and coordinating statewide training/exercise.

      Specifically, in FY 2002 the State strategically distributed equipment grant
      funds based on a pattern of needs, vulnerability, threat and regional
      familiarity. The first responders agencies were selected for FY 2002 funds
      based on a scoring criteria established by the State to prioritize needs. The
      scoring criteria involved an assessment of first responders’ and state
      agencies’ existing response roles, organizational capabilities,
      suspected/actual weapons of mass destruction responses, current
      capabilities and expertise in related areas, and their ability to support local
      agencies in an emergency. Thus, there was a correlation between the
      implemented strategy and the allocations provided by the State to the
      organizations and areas of greatest need.

      In FYs 2003 and 2004, each County Working Group developed a spending
      plan that was factored into the State's overall grant submission strategy.
      More specifically, in the spending plans, projects related to management
      and administrative costs; target hardening/physical security initiative;
      buffer zone protection initiative; basic personal protection; training and
      exercise programs; follow the hazards; domestic preparedness planner;
      critical infrastructure planner; and equipment tie back to the priorities
      established based on needs assessments performed by the County Working
      Groups and the Task Force.

  •   Did the State appropriately allocate funding based on threats,
      vulnerabilities, capabilities, and priorities?

      Yes, the State of New Jersey appropriately allocated their funding. We
      recalculated without exception the allocations for FYs 2002 through 2004
      to ensure that the allocations were in accordance with the grant program.
      From the initial allocations given from FY 2002 program funds, the State
      has based the funding provided on risks, threats, and prioritized needs. In
      FY 2002, the State strategically distributed equipment grant funds based
      on a pattern of needs, vulnerability, threat and regional familiarity. The
      first responder agencies were selected for FY 2002 funding based on a
      scoring criteria established by the State. Thus a correlation existed
      between the strategy and the spending plans. In FY 2003 and FY 2004,
      each County Working Group and state agency developed a spending plan
      that was factored into the State's overall grant submission strategy. The
      allocations included several regional and state initiatives related to
      enhanced information technology capabilities including databases for
      training and exercises.

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 9
  •   Are the State’s procurement methodologies (centralized, local, or
      combination) reasonable and in conformance with its homeland security
      strategies?

      Yes, currently, the State of New Jersey’s procurement methodologies are
      reasonable and in conformance with its homeland security strategies. The
      procurement methodologies were primarily localized with limited regional
      procurement in the FY 2004 grant program. With the FY 2002 grant
      program, local jurisdictions experienced snags and delays in procurement
      due to their multilevel approval processes and financing. According to
      local officials interviewed, some counties faced challenges because the
      procurement timeframe placed an administrative and financial burden on
      the local jurisdictions. For example, the less affluent counties had to
      borrow money to purchase homeland security equipment because the
      homeland security grant programs are administered on a reimbursement
      basis. However, in FY 2004, the Governor tasked the Attorney General
      and the State Treasurer to recommend steps and facilitate cooperation
      between the State and local agencies to ensure that the municipal
      reimbursement process worked efficiently and effectively and to promote
      local awareness of procurement options. Beginning in FY 2004 the local
      jurisdictions were able to use various procurement options to expedite their
      spending plan via local, state or federal vendors. Also, in 2004, several
      local jurisdictions unified to purchase software and hardware through the
      Division of State Police.

  •   Is the time it takes the State to get funds/equipment to first responders
      (from the time the funds/equipment were available to the State until they
      were disbursed/provided to the jurisdiction) reasonable, and if not, what
      caused the delays?

      The time it took for the State of New Jersey to provide obligation
      authority to the local jurisdictions has improved steadily over the years
      from FYs 2002 through 2004. The State reimburses local jurisdictions for
      the equipment, training, and other purchases and thus no funds are
      disbursed in advance. We documented certain events for each program
      grant cycle that revealed it took the State of New Jersey 199 days to
      obligate the FY 2002 grant funds to local jurisdictions/first responder
      agencies. No timeline for obligation to local jurisdictions had been
      established for the FY 2002 grant funds. In FY 2002, the State took
      longer than in later years because they requested applications from local
      jurisdictions/first responder agencies and issued awards based on a
      criteria-based assessment. The State obligated the FY 2003 Part I funds to
      the local jurisdiction/first responders agencies in 45 days, as required by

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 10
      the program guidelines. The State obligated the FY 2003 Part II grant
      funds to local jurisdictions/first responder agencies in 12 days, exceeding
      the 45 day requirement. The State obligated the FY 2004 first responder
      grant funds to local jurisdiction/first responder agencies in 56 days, within
      the 60 days required. During FY 2004, in order to improve processing, the
      State held a statewide conference in which procurement, drawdown, and
      reimbursement procedures were explained.

  In determining whether the State of New Jersey achieved the goals of the
  program, we answered the following researchable question:

  •   Has the State developed and implemented plans to measure improvements
      in preparedness as a result of the grants and have such measurement
      efforts been effective?

      Yes, the State of New Jersey has developed and implemented plans to
      measure improvements in preparedness. We believe these measures to be
      effective because they provide the State with programmatic and financial
      status, and areas of strength and weakness for use in corrective actions.
      Intrinsic in each strategy are methods that the State employs to measure
      improved preparedness. The methods employed are varied and include,
      but are not limited to, Comprehensive Reviews of Critical Infrastructure,
      After Action Reports, workshops, spending plan spreadsheets, Domestic
      Security Exercise Support Team, and County Working Groups. The State
      implemented most of these methods in calendar year 2003.

      The State measures improvements in preparedness by conducting
      Comprehensive Reviews of Critical Infrastructure. Also, using the results
      of its various data gatherings, the Task Force issues an annual report that
      details how the federal and state funding is used and the effect on New
      Jersey’s preparedness. The Task Force is required by state law to provide
      a report to the State Senate and Assembly; and the oversight committees.
      The Task Force also chose to provide a portion to the public. We
      reviewed the publicized annual reports for FYs 2003 and 2004/2005. We
      noted that the annual reports are comprehensive and cover the Task Force
      funding, critical infrastructure, health emergency response, law
      enforcement response, information sharing and outreach, technology,
      training, exercises, and emergency response. As a result of exercises
      performed, critical infrastructure assessments, and Task Force and County
      Working Group meetings, the reports document several strategies for
      enhancing preparedness. For example, the strategies involve new
      legislation, new task forces, 16 Best Practices documents for private
      industry sectors and associated progress reports on implementation, and a

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 11
      revised Task Force Plan of Operation. In the FY 2004/2005 annual report,
      the Task Force discussed their reassessment of the state efforts and their
      alignment with the federal mandates.

      We reviewed a sample of After-Action Reports prepared by the Domestic
      Security Exercise Support Team. The Team was organized by the Task
      Force in April 2003, to coordinate exercises statewide at all levels of
      government and between government entities and the private sector. The
      After-Action Report includes an Improvement Action Plan that collects
      the lessons learned during the exercise and transforms them into corrective
      actions. The After-Action Report is the tool used to provide feedback to
      participating jurisdictions on their performance during the exercise and
      provides the State with information needed to assess the States’
      preparedness. The State believes these reports to be effective because
      organizations make corrective actions and shared reports are used by other
      counties. We believe that the reports are comprehensive and provide
      reasonable corrective actions and timeframes. As evidenced by the
      affirmative responses of the first responder agencies to our questions on
      improved preparedness, as illustrated in the evolution of their strategy, and
      the progress from FYs 2003 through 2005, the State’s efforts to measure
      improved preparedness appeared to be effective.

      Additionally, in April 2005, state officials and representative from each of
      the 21 counties were trained on how to measure preparedness
      improvements as a result of a sponsored strategic planning workshop.
      Also, the State uses the spending plan spreadsheets for justification and
      evaluates operational usage of equipment to gauge success and measure its
      progress with goals and objectives identified in the strategy.

  In determining whether the State of New Jersey spent funds in accordance
  with the grant requirements, we answered the following researchable
  questions:

  •   Does the State Administrative Agency have procedures in place to monitor
      the funds and activities at the local level to ensure that grant funds are
      spent according to grant requirements and State-established priorities?
      Have these monitoring procedures been implemented and are they
      effective?

      Yes, the State of New Jersey has implemented effective monitoring and
      oversight procedures for the local jurisdictions. The State has a written
      plan for oversight and monitoring. They use a combination of monthly
      reporting from each county and site visits. Also, as part of the monitoring

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 12
      performed of subrecipients, reimbursement requests from the local
      jurisdictions are reviewed and approved by the Division of State Police.
      We obtained and reviewed the State’s written plan and procedures. We
      reviewed a sample of the monthly reports and determined that they could
      be used to monitor spending, evaluate and monitor subgrantee
      performance, and measure the effectiveness of the grant programs.

      In addition, during FY 2003, the Office of the Attorney General assigned
      financial and program staff from the Division of State Police Office of
      Emergency Management to periodically conduct site visits to subgrantees,
      in order to evaluate procurement and grant performance. These visits also
      include assessing the operations and equipment purchased. The site visits
      resulted in reports provided to the Office of the Attorney General and
      shared with the Task Force. Based on our review of the oversight report
      for Gloucester County, for example, the site visit is very comprehensive
      and covers financial and performance progress.

  •   Did the State comply with cash management requirements and DHS’
      financial and status reporting requirements for the grant programs and did
      local jurisdictions spend grant funds advanced by the State in a timely
      manner and, if not, what caused the delays?

      The State of New Jersey is on a reimbursement basis with DHS and with
      its subgrantees. Therefore, no local jurisdictions received advances. The
      State did not fully comply with the timeliness requirements for financial
      and program status. We verified that all amounts reported on the
      Financial Status Reports matched the Office of Justice Programs Phone
      Activated Paperless Request System and the State of New Jersey’s
      accounting system. However, the Financial Status Reports were not
      submitted in a timely manner for 12 out of 46 periods. The lateness
      ranged from 8 to 316 days. See further details of the finding and
      recommendation beginning on page 20.

      The Categorical Assistance Progress Reports were prepared and submitted
      timely except for 5 of 27 reporting periods. We requested the reports;
      however, the state grant coordinators were unable to locate the reports.
      Subsequent to our fieldwork, the state officials concluded that the reports
      were not submitted. The DHS Preparedness Officer said that currently
      DHS relies on the Biannual Strategy Implementation Report to report
      progress for program years 2004 and later. The Biannual Strategy
      Implementation Report’s information is reported online by the grantee for
      program years 2004 and later. See further details of the finding and
      recommendations beginning on page 18.

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 13
  •   Were grant funds used according to grant requirements and State-
      established priorities?

      Generally, the State of New Jersey used the grant funds in accordance
      with the grant requirements and the established priorities except for
      $247,199 in unsupported expenditures. We conducted site visits to 16
      state and local agency subgrant recipients and four first responder agencies
      subgrant recipients in five regions. We interviewed the Office of
      Emergency Management personnel and fiscal agents. We reviewed
      supporting documentation at the subgrant recipient level for 35 subgrant
      awards totaling $40.3 million. We determined that $40.1 million was spent
      according to the provisions of the program guidelines. The State spent the
      grant funds for various types of training, information technology
      resources, personnel, and equipment for various organizations including,
      but not limited to, bomb squads, emergency management services, and
      police. The purchased equipment tested appeared to be used for the
      purposes intended. However, our audit identified $247,199 in questioned
      costs (i.e., costs that lacked sufficient supporting documentation at the
      time of the audit) out of $40.3 million sampled. The federal government
      could require the State to repay any monies not expended according to the
      grant requirements. Additionally, noncompliance could place future
      homeland security grant funds at risk. See further details of the finding
      and recommendations beginning on page 15.

  •   Are there best practices that can be identified and shared with other states
      and DHS?

      We noted the following effective tools and practices that should be
      reviewed by the DHS for possible use by and sharing with other states.

      The State of New Jersey’s Governor, Attorney General, Congressional and
      State legislators, and Director of the Office of Homeland Security and
      Preparedness have set a positive tone at the top that emphasizes the
      importance of homeland security and coordination and collaboration
      between the various levels of government. Also, the establishment of the
      New Jersey Domestic Preparedness Task Force in 2001 as a state cabinet
      level agency with dedicated staff and the fact that the state has
      appropriated approximately $248 million in state funding from FYs 2002
      through 2004 also supports the positive tone at the top.

      In the “Report from the Task Force on State and Local Homeland Security
      Funding” issued by the Homeland Security Advisory Council in June

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 14
      2004, the State of New Jersey was described as a national role model for
      implementing a strong support network when procuring and delivering
      emergency response equipment. The State of New Jersey, in conjunction
      with DHS, has modified their procurement practices to expedite the
      procurement of equipment and services. This modification allows the
      counties and other local jurisdictions to procure through established state
      and federal contracting vehicles, thereby streamlining the process.

      Also, New Jersey monitoring and oversight program involves site visits
      and monthly reporting. The site review team included eight personnel
      from State Police Office of Emergency Management and two Office of the
      Attorney General personnel. The State Police personnel included four
      Field Review Liaisons and two auditors to conduct audits. Also, monthly
      reports from the county liaisons are used to monitor spending and program
      performance.

      Findings

      Overall, based upon the testwork performed and the answers to the
      researchable questions, we found that the State (1) effectively and
      efficiently implemented the first responder grant programs, (2) achieved
      the goals of the programs, and (3) generally spent funds in accordance with
      grant requirements.

      Supporting Documentation for Expenditures Charged to Federal
      Funds Was Inadequate

      The State did not have documentation to support expenditures totaling
      $247,199. According to the state and local officials, the lack of supporting
      documentation was due in large part to the staff responsible for
      maintaining the grant files at that time are no longer employed with
      state/local jurisdictions and, therefore, documentation could not be
      located. Also, they cited the lack of centralization of records at the state
      level and the multiple spending points at the state level as contributing
      factors to their inability to locate supporting documentation when initially
      requested. The lack of supporting documentation increases the risk that
      improper expenditures could occur without detection.

      The Office of the Attorney General, as the State Administrative Agency, is
      responsible for ensuring that adequate supporting documentation is
      retained for all federal grant expenditures incurred to document that the
      expenditure is appropriate, reasonable, and in compliance with purchasing
      policies.

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 15
      As part of our testing, we selected a sample of subgrant awards for each
      grant year. We requested documentation such as vouchers, invoices, and
      receiving reports to substantiate the cost, use, and allowability of the
      expenditures. Initially, as of December 29, 2006, the Office of the
      Attorney General did not provide sufficient supporting documentation for
      various expenditures totaling $15.9 million charged to the grants for FYs
      2002 through 2004. Subsequent to our field visit in the intervening
      months, the Office of the Attorney General and the Department of State
      Police were able to locate sufficient supporting documentation for those
      transactions sampled except for transactions amounting to $247,199. We
      question these expenditures. Table 2 below represents the summary of
      unsupported amounts.

                                              Table 2
                                                                            Percentage of
                                                                              Sampled
                                           Amount of                        Transactions
                                          Transactions       Amount of         Amount
                                             Lacking         Sample of         Lacking
                                            Sufficient       Subgrant         Sufficient
                                           Supporting         Awards         Supporting
       Grant                             Documentation        Tested       Documentation
       FY 2002 State Domestic
       Preparedness Program Grant               $ 92,592     $ 2,527,593        4%
       FY 2004 State Homeland
       Security Grant Program                   $154,607    $18,673,837         1%
       Total                                    $247,199    $21,201,430         1%

      The grant agreement requires the State Administrative Agency, the Office
      of the Attorney General, to comply with Code of Federal Regulations Title
      28 Part 66. The Code of Federal Regulations Title 28 § 66.42, Retention
      and access requirements for records requires that all financial records,
      supporting documents, statistical records, and other records pertinent to an
      award must be retained for a period of three years from the date of
      submission of the final expenditure report or, for awards that are renewed
      quarterly or annually, from the date of the submission of the last quarterly
      or annual financial report, as required. This requirement was also pushed
      down to the local jurisdiction through a similar grant agreement between
      the state and the local jurisdiction.

      The subgrant recipient personnel and the Office of the Attorney General
      stated that they could not locate the supporting documentation for sample
      expenditures. The subgrant recipients’ personnel currently responsible for
      the grant could not explain why supporting documentation for the selected
      grant expenditures were not in the grant files. They believed that the

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 16
      missing documentation resulted from employees that are no longer
      employed by the local organization. The Office of the Attorney General
      indicated that they would try to locate the documentation. Also, they cited
      the lack of centralization of records at the state level and the multiple
      spending points at the state level as contributing factors to their inability to
      locate supporting documentation when initially requested. The Office of
      the Attorney General and the Division of State Police provided us with
      sufficient documentation to mitigate the initial unsupported amounts
      subsequent to our site visit. The lack of supporting documentation
      increases the risk that improper expenditures could occur without
      detection.

      The Office of the Attorney General’s is ultimately responsible for the
      documentation as a result of its officials’ acceptance of the grant and
      signature on the grant agreement. Therefore, the Office of Attorney
      General should retain all documentation and the local jurisdiction’s files
      should provide backup documentation only.

      Recommendations:

      We recommend that the Deputy Administrator National Preparedness
      Directorate within the Federal Emergency Management Agency require
      the Office of the Attorney General to:

      1. return to DHS amounts related to the unsupported expenditures.
      2. evaluate its requirements for subgrant recipients to maintain adequate
         supporting documentation.
      3. take steps to ensure the records retention requirements are being
         followed and records are maintained at a centralized location.

      Management Comments:

      We received verbal concurrences on the recommendations from the
      National Preparedness Directorate officials and the State of New Jersey
      officials. Additionally, the State of New Jersey has commented that rarely
      did supporting documentation not exist. The State submitted additional
      documentation as of April 20, 2007, that supports most expenditure. The
      State concurs that there are a limited amount of expenditures for which the
      supporting documentations cannot be found. Also, the State has
      implemented an automated web-based Grants Tracking System beginning
      with the FY 2005 Homeland Security Grant Program that tracks all
      subawards for the entire life cycle. The New Jersey Office of Homeland


The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 17
      Security and Preparedness, the State Administrative Agency since June
      29, 2006, will receive copies of invoices and proof of payments.

      The National Preparedness Directorate will provide corrective actions for
      the three recommendations and a plan to implement those corrective
      actions within 90 days.

      Auditor Analysis:

      We believe that the State of New Jersey has addressed the
      recommendations adequately except for the return to DHS of unsupported
      amounts and the centralization of supporting documentation. In the exit
      conference the State officials verbally agreed to the recommendations but
      these areas are not included specifically in writing in the attached
      response.

      The National Preparedness Directorate needs to provide corrective actions
      for each recommendation and a plan to implement those actions within 90
      days.

      Categorical Assistance Progress Reports Were Not Submitted

      The New Jersey Office of the Attorney General did not provide the
      Categorical Assistance Progress Report for 5 of 27 reporting periods for
      the FY 2003 grants. The non-filing of the Categorical Assistance Progress
      Reports represents a noncompliance with the grant agreement requirement
      for periodic progress reporting. Although, the missing Categorical
      Assistance Progress Reports do not prevent drawdowns by the grantee as
      originally required, DHS will not allow a grant to be closed if the grantee
      has not submitted a Categorical Assistance Progress Report for each
      required period over the life of the grant.

      Grantees are required to submit a Categorical Assistance Progress Report
      on a semi-annual basis for the life of the grant as stated in the instructions
      to the report. The semi-annual Categorical Assistance Progress Report is
      designed to provide DHS with information that it can use to monitor the
      implementation of the first responder grant. More specifically, the
      progress reports are supposed to describe in narrative fashion information
      relevant to the performance of a plan, program, or project.

      We were unable to determine whether 5 of the 27 required Categorical
      Assistance Progress Reports were ever submitted and submitted timely for
      FY 2003 Part I and II grant programs for the reporting periods ending June

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 18
      2005 and December 2005, and for the period ending June 2006 for
      FY 2003 Part II only.

      According to the Code of Federal Regulations Title 28 § 66.40 Monitoring
      and reporting program performance, grantees shall submit annual
      performance reports unless the awarding agency requires quarterly or
      semi-annual reports. Quarterly or semi-annual reports are due 30 days
      after the reporting period. The final performance report will be due 90
      days after the expiration or termination of grant support.

      The FY 2002, FY 2003 Part I and Part II, and FY 2004 grant agreements -
      special conditions require that “the recipient agrees to comply with the
      financial and administrative requirements set forth in the current edition of
      the Office of Justice Programs Financial Guide.” Thus according to the
      grant agreements, the State of New Jersey was required to prepare
      Categorical Assistance Progress Reports per the FYs 2002 and 2005
      Financial Guide Part III: Chapter 11. The Chapter 11 Reporting
      Requirements–Program Reports- (5) Categorical Assistance Progress
      Report requires that “this report is prepared twice a year and is used to
      describe the performance of activities or the accomplishment of objectives
      as set forth in the approved award application.” Also, as required in the
      section-Reporting Period: “Progress reports must be submitted within 30
      days after the end of the reporting periods, which are June 30 and
      December 31 for the life of the award. The awarding agency may opt, by
      special condition to the award, to combine the first report into the
      subsequent reporting period. For example, if the begin date on the award
      is June 1, the awarding agency may opt to receive the first report 30 days
      after the December 31 reporting period.” Also, the final report is due 120
      days after the end of the performance period.

      The Office of the Attorney General was unable to locate the Categorical
      Assistance Progress Reports listed above. They believe that the reports
      were not submitted. The non-filing of the Categorical Assistance Progress
      Reports is a violation of the grant agreement. In 2004, DHS stopped using
      the Categorical Assistance Progress Report to monitor grant program
      progress and implemented the Grants Reporting tool for program years
      2004 and later. This monitoring tool required grantees to submit the
      Initial Spending Implementation Plan and the Biannual Strategy
      Implementation Report to monitor program process. Although, the
      untimely submission of the Categorical Assistance Progress Report does
      not prevent the grantee from drawing down federal funds, the grant can
      not be closed if the grantee has not submitted a Categorical Assistance
      Progress Report for each required period over the life of the grant.

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 19
      Beginning with the FY 2004 grants, the State of New Jersey used the
      Biannual Strategy Implementation Report to provide the DHS with the
      progress made by the State of New Jersey in meeting their strategic goals
      and objectives.

      Recommendations:

      We recommend that the Deputy Administrator National Preparedness
      Directorate within the Federal Emergency Management Agency require
      the Office of the Attorney General to:
      1. submit the five Categorical Assistance Progress Reports that were
          missing.
      2. ensure that in the future they retain evidence that they are complying
          with the grant terms regarding Categorical Assistance Progress
          Reports.

      Management Comments:

      The National Preparedness Directorate officials and the State of New
      Jersey officials have provided verbal concurrences to the
      recommendations. The State officials have agreed to implement a
      checklist beginning with FY 2008, starting July 1, 2007 that will be
      reviewed on a quarterly basis by a supervisor. See the complete State
      response in Appendix C.

      The National Preparedness Directorate will provide corrective actions for
      the two recommendations and a plan to implement those corrective actions
      within 90 days.

      Auditor Analysis:

      We believed that the recommendations have been appropriately addressed
      going forward but they have not addressed in writing the submission of
      five late reports that need to be provided.

      The National Preparedness Directorate needs to provide corrective actions
      for each recommendation and a plan to implement those actions within 90
      days.

      Financial Status Reports Were Not Submitted Timely

      The Office of the Attorney General did not submit 12 of the 46 FYs 2002
      through 2004 Financial Status Reports within the required 45 days after

The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 20
      the end of the quarter. We noted that the Office of the Attorney General
      did not establish written procedures with preparation and review timelines
      to ensure that the Financial Status Reports were submitted timely. As a
      result, the State’s access to its awarded funding was delayed until the
      submissions of the Standard Form 269 reports were current.

      For each of the periods of performance listed below, in Table 3, the Office
      of the Attorney General did not submit the Financial Status Reports within
      45 days of the end of the quarter. For 12 of the 46 periods, the Office of
      the Attorney General did not submit its Financial Status Reports on time.

                                               Table 3
                                                           Due        Date        Days
             Fiscal Year            Reporting Period       Date       Submitted   overdue
                                01/01/03   to   03/31/03    5/15/03     3/31/04     316
                                10/01/03   to   12/31/03    2/14/04     6/17/04     123
       1 FY 2002
                                01/01/04   to   03/31/04    5/15/04     6/17/04      32
                                10/01/04   to   12/31/04    2/14/05      5/2/05      78
                                10/01/03   to   12/31/03    2/14/04     6/17/04     123
                                01/01/04   to   03/31/04    5/15/04     6/17/04      32
       2 FY 2003 Part 1
                                10/01/04   to   12/31/04    2/14/05     5/13/05      89
                                01/01/05   to   03/31/05    5/15/05     5/23/05       8
                                10/01/03   to   12/31/03    2/14/04     6/17/04     123
       3 FY 2003 Part 2         01/01/04   to   03/31/04    5/15/04     6/17/04      32
                                10/01/04   to   12/31/04    2/14/05     4/27/05      73
       4 FY 2004                10/01/04   to   12/31/04    2/14/05     2/22/05       8


      The State of New Jersey is drafting written financial status reporting
      procedures. The following is summarized from discussions with various
      State employees. New Jersey’s Financial Status Report is prepared by the
      administrative analyst, Division of State Police’s Grants Unit, on a
      quarterly basis. The figures reported on the Financial Status Reports are
      based on the actual expenditures for the quarter as acquired from the
      accounting system, the Certified Financial System. The Financial Status
      Report is forwarded to the fiscal control bureau chief, and program
      manager, in the Division of State Police, for review and approval. After
      approval, the administrative analyst enters the Financial Status Report
      information into the drawdown payment system, the Phone Activated
      Paperless Request System. Because the drawdown system will not allow a
      recipient to draw down funds when Financial Status Reports are
      outstanding, during the periods indicated in Table 3, the Office of the
      Attorney General was unable to receive reimbursement until the Financial
      Status Reports were submitted.

      According to the Code of Federal Regulations Title 28 § 66.41(b)
      Financial Status Report, grantees will use Standard Form 269 or 269A,
The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 21
      Financial Status Report, to report the status of funds for all non-
      construction grants and for construction grants when otherwise required.
      Each grantee will report program outlays and program income on a cash or
      accrual basis as prescribed by the awarding agency. The federal agency
      may prescribe the frequency of the report for each project or program.
      However, the report will not be required more frequently than quarterly.
      When reports are required on a quarterly or semiannual basis, they will be
      due 30 days after the reporting period. Final reports will be due 90 days
      after the expiration or termination of grant support. The quarterly
      Financial Status Report is required by DHS to monitor the expenditures of
      the grantee’s first responder grant funding.

      Also, as stated in the FYs 2002, 2003, and 2004 State Domestic
      Preparedness Program, Program Guidelines and Application Kits,
      “Financial Status Reports (Standard Form 269A): Financial Status Reports
      are due within 45 days of the end of each calendar quarter. A report must
      be submitted for every quarter the award is active (including partial
      calendar quarters, as well as for periods where no grant activity occurs).
      The final financial report is due 120 days after the end date of the award
      period”. We used the 45 days required by DHS in preparing Table 3.

      The Office of the Attorney General did not establish written procedures
      with preparation and review timelines to ensure that the Financial Status
      Reports were submitted timely. This hampered DHS’ ability to effectively
      and efficiently monitor the first responder grant expenditures for the State
      of New Jersey. Also, the State could not receive reimbursement for their
      expenditures until the Financial Status Reports were submitted. Therefore,
      reimbursement was delayed for 8 to 316 days.

      Recommendation:

      We recommend that the Deputy Administrator National Preparedness
      Directorate within the Federal Emergency Management Agency strongly
      encourage the Office of the Attorney General to finalize and implement the
      written procedures related to the Financial Status Reports to ensure that the
      reports will be submitted timely in the future.

      Management Comments:

      The National Preparedness Directorate officials and the State of New
      Jersey officials have provided a verbal concurrence to the
      recommendation. See the State’s response in Appendix C.


The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 22
      The National Preparedness Directorate will provide a corrective action for
      the recommendation and a plan to implement the corrective action within
      90 days.

      Auditor Analysis:

      We believed that the recommendation has been appropriately addressed.

      The National Preparedness Directorate needs to provide corrective actions
      for the recommendation and a plan to implement those actions within 90
      days.




The State of New Jersey’s Management of State Homeland Security Grants
                Awarded During FYs 2002 through 2004


                               Page 23
Appendix A
Objectives, Scope, and Methodology


                           The objectives of the audit were to determine whether the State of New Jersey
                           effectively and efficiently implemented the first responder grant programs,
                           achieved the goals of the programs, and spent the funds awarded according to
                           grant requirements. The goal of the audit was to identify problems and
                           solutions that would help the State of New Jersey prepare for and respond to
                           terrorist attacks.

                           The audit further enabled us to answer the following researchable questions:

                           •    Did the State use reasonable methodologies for assessing threat,
                                vulnerability, capability, and prioritized needs?

                           •    Did the State appropriately allocate funding based on threats,
                                vulnerabilities, capabilities, and priorities?

                           •    Has the State developed and implemented plans to measure improvements
                                in preparedness as a result of the grants and have such measurement
                                efforts been effective?

                           •    Are the State’s procurement methodologies (centralized, local, or
                                combination) reasonable and in conformance with its homeland security
                                strategies?

                           •    Does the State Administrative Agency have procedures in place to monitor
                                the funds and activities at the local level to ensure that grant funds are
                                spent according to grant requirements and State-established priorities?

                           •    Did the State comply with cash management requirements and DHS’
                                financial and status reporting requirements for the grant programs and did
                                local jurisdictions spend grant funds advanced by the State in a timely
                                manner and, if not, what caused the delays?

                           •    Were grant funds used according to grant requirements and State-
                                established priorities?

                           •    Is the time it takes the State to get funds/equipment to first responders
                                (from the time the funds/equipment were available to the State until they
                                were disbursed/provided to the jurisdiction) reasonable (auditor
                                judgment), and if not, what caused the delays?

                           •    Are there best practices that can be identified and shared with other states
                                and DHS’?


                         The State of New Jersey’s Management of State Homeland Security Grants
                                         Awarded During FYs 2002 through 2004


                                                        Page 24
Appendix A
Objectives, Scope, and Methodology (continued)


                            The scope of the audit included the following grant programs. These
                            programs are described in the Background section of this report.

                            •   FY 2002 State Domestic Preparedness Program

                            •   FY 2003 State Homeland Security Grant Program Part I

                            •   FY 2003 State Homeland Security Grant Program Part II

                            •   FY 2004 State Homeland Security Grant Program

                            The audit methodology included work at DHS/National Preparedness
                            Directorate within the Federal Emergency Management Agency Headquarters,
                            the State of New Jersey’s offices responsible for the management of the
                            grants, and various subgrantee locations. In order to achieve our audit
                            objective we analyzed data, reviewed documentation, and interviewed the key
                            state and local officials directly involved in the management and
                            administration of the State of New Jersey’s Homeland Security Grant
                            Programs. In addition, we spoke with officials at the DHS/National
                            Preparedness Directorate within the Federal Emergency Management Agency.
                            We conducted site visits and held discussions with appropriate state and local
                            officials from six state agencies, ten counties across the state, and four first
                            responder agencies in order to determine if program grant funds were
                            expended in accordance with grant requirements and state-established
                            priorities.

                            We conducted site visits at the following six state agencies.

                            •   Division of State Police
                            •   Department of Environmental Protection
                            •   Department of Military and Veterans Affairs
                            •   Department of Transportation
                            •   Office of the Attorney General
                            •   Department of Agriculture

                            We conducted site visits to 10 of the 21 counties in the State of New Jersey
                            that cover the five New Jersey designated regions.

                            •   Urban Area Security Initiative Region
                                o Essex County, Bergen County, Morris County, and Passaic County
                            •   Delaware River Region
                                o Burlington County, Gloucester County, and Camden County


                         The State of New Jersey’s Management of State Homeland Security Grants
                                         Awarded During FYs 2002 through 2004


                                                        Page 25
Appendix A
Objectives, Scope, and Methodology (continued)


                            •   Central Region
                                o Middlesex County

                            •   Shore Region
                                o Atlantic County

                            •   Northwest Region
                                o Hunterdon County

                            We also conducted site visits to the following four first responder agencies:

                            •   Essex County Sheriff’s Office of Emergency Management/Bomb Squad
                            •   Middlesex County Health Department (Hazmat)
                            •   Morris County Sheriff
                            •   Waterford Township Fire Department (Camden County)

                            At each location visited, we interviewed responsible officials, reviewed
                            documentation supporting the state and subgrantees management of the
                            awarded grant funds, and physically inspected some of the equipment
                            procured with the grant funds.

                            We reviewed prior audit reports and coordinated our work with the Office of
                            the Attorney General and the Division of State Police. We conducted
                            fieldwork for the audit between August and November 2006 and performed
                            the work in accordance with the Government Auditing Standards prescribed
                            by the Comptroller General of the United States. Additional documentation
                            received subsequent to November 2006 was factored into the findings and
                            recommendations as appropriate.

                            This was primarily a performance rather than a compliance audit performed
                            by a Department of Homeland Security, Office of Inspector General
                            contractor. We were not engaged to and did not perform a financial statement
                            audit, the objective of which would be to express an opinion on specified
                            elements, accounts, or items. Accordingly, we were neither required nor
                            expressed an opinion on the costs claimed for the grant programs included in
                            the scope of the audit. Had we been required and performed additional
                            procedures or conducted an audit of the financial statements in accordance
                            with generally accepted auditing standards, other matters might have come to
                            our attention that would have been reported. This report relates only to the
                            programs specified and does not extend to any financial statements of the
                            State of New Jersey.



                         The State of New Jersey’s Management of State Homeland Security Grants
                                         Awarded During FYs 2002 through 2004


                                                        Page 26
Appendix A
Objectives, Scope, and Methodology (continued)


                            While the audit work was performed and the report was prepared under
                            contract, the audit results are being reported by the Department of Homeland
                            Security, Office of Inspector General to appropriate DHS/National
                            Preparedness Directorate within the Federal Emergency Management Agency
                            and the State of New Jersey officials.




                         The State of New Jersey’s Management of State Homeland Security Grants
                                         Awarded During FYs 2002 through 2004


                                                        Page 27
Appendix B
The Office of the Attorney General’s Organization Chart




Source: New Jersey Office of the Attorney General Annual Report 2005

                       The State of New Jersey’s Management of State Homeland Security Grants
                                       Awarded During FYs 2002 through 2004


                                                      Page 28
Appendix C
The Office of the Attorney General’s Response to Recommendations




                      The State of New Jersey’s Management of State Homeland Security Grants
                                      Awarded During FYs 2002 through 2004


                                                     Page 29
Appendix C
The Office of the Attorney General’s Response to Recommendations




                      The State of New Jersey’s Management of State Homeland Security Grants
                                      Awarded During FYs 2002 through 2004


                                                     Page 30
Appendix D
Report Distribution




                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        General Counsel
                        Executive Secretariat
                        Under Secretary, Management
                        Under Secretary, Preparedness
                        Chief Financial Officer
                        Chief Information Officer
                        Assistant Secretary, Public Affairs
                        Assistant Secretary, Policy
                        Assistant Secretary, Legislative and Intergovernmental Affairs
                        Chief Security Officer
                        DHS GAO/OIG Liaison
                        Chief Privacy Officer

                        National Preparedness Directorate within the
                          Federal Emergency Management Agency

                        Assistant Secretary
                        Deputy Administrator, National Preparedness Directorate
                        Federal Emergency Management Agency Audit Liaison
                        National Preparedness Directorate Audit Liaison

                        Office of Management and Budget

                        Chief, Homeland Security Bureau
                        DHS OIG Budget Examiner

                        Congress

                        Committee on Homeland Security and Governmental Affairs
                        United States Senate

                        Committee on Homeland Security
                        United States House of Representatives




                      The State of New Jersey’s Management of State Homeland Security Grants
                                      Awarded During FYs 2002 through 2004


                                                     Page 31
                   Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


                                 OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
